                                                                             Report No. DODIG-2014-068




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 1 , 2 0 1 4




                     Air Force Managers Did Not
                     Implement Adequate Controls for the
                     Defense Enterprise Accounting and
                     Management System Order-to-Cash
                     Business Process




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Air Force Managers Did Not Implement Adequate
                                       Controls for the Defense Enterprise Accounting and
                                       Management System Order-to-Cash Business Process


May 1, 2014                                            Finding Continued

Objective                                              the 11 accounts to about $154 million. In addition to the FY 2013
                                                       abnormal balances, the lack of reconciling controls and controls
We determined whether the Air Force’s                  to make corrections to incorrectly categorized TWCF transactions
controls over recording accounting transactions        resulted in data errors of about $25 million. As DEAMS deploys
within the Defense Enterprise Accounting and           to additional locations, data inaccuracies could grow significantly
Management System (DEAMS) Order-to-Cash                if not corrected and would likely hinder the Air Force from
(O2C) business process were adequate.                  using DEAMS to meet its FY 2017 auditability requirement.


Finding                                                Recommendations
Air Force managers did not implement                   We recommend that the Assistant Secretary of the Air Force
adequate controls over recording financial             (Financial Management and Comptroller) establish and
transactions within the DEAMS O2C business             maintain evidence of metrics for measuring abnormal balances.
process. Specifically, Air Force managers did          Furthermore, we recommend he conduct and maintain evidence
not include controls for reconciling general           of a comprehensive site assessment to include risk assessments
and subsidiary ledgers or to make corrections          and business process reengineering. We also recommend that
to the categories of Transportation Working            the Director, DEAMS Functional Management Office, conduct and
Capital Fund (TWCF) transactions that were             maintain evidence of monthly monitoring of the metrics measuring
incorrectly created by other locations that            abnormal balances at all deployed sites of DEAMS, and report
process accounting transactions.                       the outcome to senior level Air Force managers.

This occurred because Air Force managers
conducted inadequate business process                  Management Comments
reengineering      and    did     not   conduct
                                                       The Deputy Assistant Secretary of the Air Force (Financial
comprehensive risk assessments to identify
                                                       Management and Comptroller) provided comments that were
certain financial reporting requirements.
                                                       responsive and agreed with the recommendations for the Assistant
                                                       Secretary of the Air Force (Financial Management and Comptroller)
As a result, in FY 2012, 11 accounts associated
                                                       and the Functional Manager, DEAMS Functional Management
with the DEAMS O2C business process
                                                       Office. Therefore, no additional comments are required. Please
produced about $2.8 billion of abnormal
                                                       see the recommendation table on the back of this page.
balances while processing data for only one
location. However in FY 2013, Air Force
managers implemented improvements that
resulted in a reduction of abnormal balances in




Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-068 (Project No. D2012-D000FH-0158.000)│ i
                   Recommendations Table
                                                                     Recommendations       No Additional
                                          Management                 Requiring Comment   Comments Required
                    Assistant Secretary of the Air Force             None                1.a, 1.b
                    (Financial Management and Comptroller)
                    Director, Defense Enterprise Accounting and      None                2
                    Management System Functional Management Office




ii │ DODIG-2014-068 (Project No. D2012-D000FH-0158.000)
                                         INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                         4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VIRGINIA 22350-1500



                                                                                         May 1, 2014

MEMORANDUM FOR COMMANDER, U.S. TRANSPORTATION COMMAND
		             ASSISTANT SECRETARY OF THE AIR FORCE
			              (FINANCIAL MANAGEMENT AND COMPTROLLER)
		             DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
			              SERVICE LIMESTONE

SUBJECT: Air Force Managers Did Not Implement Adequate Controls for the Defense Enterprise
	        Accounting and Management System (DEAMS) Order-to-Cash (O2C) Business Process
	        (Report No. DODIG-2014-068)

We are providing this report for your information and use. Unless adequate controls are developed
and implemented for the Defense Enterprise Accounting and Management System Order-to-Cash
business processes, the Air Force will continue to have significant errors in its reported financial
data, and managers will not successfully reach the FY 2017 auditability goal. Although the audit
began in August 2012, the information presented in the report remains relevant because the
Air Force intends to use DEAMS as its financial system of record to meet the FY 2017 audibility goals.


We considered management comments on a draft of this report when preparing the final
report. Comments from the Deputy Assistant Secretary of the Air Force (Financial Management
and Comptroller) on behalf of the Office of the Assistant Secretary of the Air Force (Financial
Management and Comptroller) and the DEAMS Functional Management Office were responsive
and conformed to the requirements of DoD Directive 7650.3; therefore, additional comments are
not required.


We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-5945
(DSN 664-5945).




	                                                 Lorin T. Venable, CPA
                              	                   Assistant Inspector General
                                  	               Financial Management and Reporting




                                                                                               DODIG-2014-068 │ iii
Contents
Introduction
Objectives_________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________3

Finding. Inadequate Controls Over Recording
Accounting Transactions________________________________________________________5
Air Force Managers Did Not Implement Adequate Controls Over
Recording Financial Transactions______________________________________________________________5
Business Process Reengineering and Comprehensive Risk Assessments
Were Not Adequate______________________________________________________________________________7
DEAMS Inaccuracies Could Impede Air Force Auditability and May Increase ______________8
Recommendations, Management Comments, and
Our Response_____________________________________________________________________________________9

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 12
Appendix B. Prior Audit Coverage_ __________________________________________________________ 14
Appendix C. Thirty Order-to-Cash Accounts________________________________________________ 16
Appendix D. DEAMS Abnormal Balances in Order-to-Cash Accounts_____________________ 17
Appendix E. Assistant Secretary of the Air Force
(Financial Management and Comptroller) Comments______________________________________ 18

Acronyms and Abbreviations______________________________________________ 21




                                                                                                       DODIG-2014-068 │ v
                                                                                       Introduction




Introduction
Objectives
Our overall objective was to determine whether the Air Force’s controls over
recording accounting transactions within the Defense Enterprise Accounting and
Management System (DEAMS) Order-to-Cash (O2C) business process were adequate.
In addition, we were to determine whether DEAMS O2C transactions were supported
with verifiable audit trails.

The Air Force O2C business process encompasses 16 different systems, including
DEAMS. These 16 systems either support, or process, or both support and process
financial transactions included in the DEAMS O2C business process. To determine
whether the Air Force O2C business processes were adequate, we would have had
to review the controls and functionality for all 16 systems. Instead, we determined
whether the controls unique to DEAMS O2C business process were properly identified
and implemented. Because we did not review the entire Air Force end-to-end O2C
business process, we did not determine whether DEAMS O2C transactions were
supported with verifiable audit trails. See Appendix A for the scope and methodology
and Appendix B for the prior audit coverage.


Background
Defense Enterprise Accounting and Management System
DEAMS is a joint Enterprise Resource Planning initiative among the Air Force, the
United States Transportation Command (USTRANSCOM), and the Defense Finance and
Accounting Services (DFAS). When fully deployed, DEAMS will serve as the financial
management system of record for the Transportation Working Capital Fund (TWCF)
and the General Fund for both USTRANSCOM and the Air Force. The development of
DEAMS is under the direction of the Office of the Secretary of the Air Force for
Financial Management and Comptroller, and the Office of the Secretary of Defense
Finance Accounting Operations and Financial Management Domain.         The DEAMS
Functional Management Office (FMO) is responsible for interacting with the
Air Force, USTRANSCOM, and DFAS financial community to define functional
requirements.      The DEAMS FMO records, vets, formalizes, and delivers the
requirements to the DEAMS Program Management Office, which is responsible for
delivering a configured system that satisfies the requirements provided by the FMO.




                                                                                   DODIG-2014-068 │ 1
Introduction



                 As of October 2013, DEAMS was deployed to about 1,200 users at six locations––
                 Scott Air Force Base (AFB), McConnell AFB, Dover AFB, Grand Forks AFB, Little
                 Rock AFB, and Pope AFB––and is expected to support about 30,000 users across the
                 Air Force when fully deployed. DEAMS has been in development for about 10 years
                 and is not scheduled to be complete until FY 2017.                                     As of February 25, 2013,
                 DEAMS’s expenditures totaled $380.1 million, and Air Force managers estimate that
                 the total cost will be about $2.0 billion.


                 Material Weaknesses Related to Business Processes
                 The Air Force and USTRANSCOM had longstanding material weaknesses in their
                 internal controls over financial systems. The Air Force also had longstanding material
                 weaknesses in the financial reporting of its business operations. In the Air Force’s
                 FY 2013 Statement of Assurance, the Air Force reported two financial reporting
                 material        weaknesses           involving       accounts        receivable        relating      directly        to   the
                 O2C business process, and one material weakness involving internal controls over
                 financial systems.             In addition, the Acting Secretary of the Air Force identified
                 DEAMS deployment as the major corrective action for resolving these material
                 weaknesses. The Acting Secretary estimated completion dates of FY 2015 for the
                 material weaknesses related to accounts receivable and FY 2017 for the material
                 weakness related to financial systems.

                 In USTRANSCOM’s FY 2013 Statement of Assurance, USTRANSCOM reported a
                 material weakness related to internal controls of financial systems. USTRANSCOM
                 reported that the nonintegrated environment in which DEAMS operated made
                 providing          consolidated          financial        statements          challenging.         The       Commander,
                 Air Force, reported that its material weakness would be corrected by 2015, when the
                 Transportation Financial Management System, Cargo and Billing System, and
                 DEAMS Component Billing System have migrated to DEAMS, to produce auditable,
                 compliant, and consolidated financial statements.


                 Defense Enterprise Accounting and Management System and
                 DoD Auditability Goals
                 The FY 2010 National Defense Authorization Act (NDAA)1 established that the Chief
                 Management Officer of the DoD develop and maintain the Financial Improvement
                 and Audit Readiness (FIAR) Plan. The FY 2010 NDAA required that the FIAR Plan
                 describe specific actions to be taken and the costs associated with ensuring that the
                 financial statements of the DoD are validated as ready for audit by September 30, 2017.


                 	1	
                       Public Law 111-84, “National Defense Authorization Act (NDAA) for Fiscal Year 2010,” dated October 28, 2009.



2 │ DODIG-2014-068
                                                                                                                         Finding



According to the FIAR Plan of November 2012, DEAMS will be one of the Enterprise
Resource and Planning systems essential for the Air Force to reach audit readiness.

The FY 2012 NDAA2 established that the FIAR Plan will include interim objectives
and a schedule of milestones for each military department and for the defense agencies;
the FIAR plan will support the goals established by the Secretary of Defense that
the Statement of Budgetary Resources is validated for audit by September 30, 2014.
According to the Air Force’s November 2012 FIAR Plan, because DEAMS will not
be fully deployed in 2014, the Air Force will rely on manual controls and legacy
system enhancements to meet the FY 2014 goal of audit readiness for the Statement of
Budgetary Resources.


Business Process Reengineering Requirements
The FY 2012 NDAA, amended section 2222 of title 10, United States Code, stipulates
that DoD may not obligate funds for a Defense business system program that will have
a total cost in excess of $1 million over the period of the current future-years defense
program without determining that appropriate business process reengineering (BPR)
efforts have been undertaken and the Defense business system program complied
with the DoD enterprise architecture requirements.                                 To justify additional DEAMS
funding, the FY 2012 NDAA required the Deputy Chief Management Officer and the
Air Force’s Chief Management Officer to make the reengineering determinations and
assert enterprise architecture compliance.

The Office of the Deputy Chief Management Officer issued a memorandum dated
April 30, 2011, providing final guidance for implementing section 1072 of the FY 2010
NDAA, which introduced the BPR. The memorandum states that the Department’s
Investment Review Boards or the Defense Business System Management Committee
may not certify a system unless appropriate BPR efforts were conducted.                                        In
September 2012, the Defense Business System Management Committee certified
investments of $133.1 million for DEAMS. The Director of Business Transformation
and Deputy Chief Management Officer, Office of the Under Secretary of the Air Force,
in his submission determined that DEAMS had complied with the NDAA requirements.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of


	2	
      Public Law 112-81, “National Defense Authorization Act for Fiscal Year 2012,” dated December 31, 2011.




                                                                                                                DODIG-2014-068 │ 3
Introduction



                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses.     We found that DEAMS did not have adequate controls over
                 recording accurate and reliable financial data because Air Force managers did not
                 conduct adequate BPR or comprehensive risk assessments to identify and
                 implement the financial reporting requirements necessary to address those
                 weaknesses. We will provide a copy of the report to the senior official(s) responsible
                 for internal controls in the Department of the Air Force.




4 │ DODIG-2014-068
                                                                                                                                         Finding




Finding
Inadequate Controls Over Recording
Accounting Transactions
Managers at the Office of the Secretary of the Air Force for Financial Management
and Comptroller, DEAMS Program Management Office, and DEAMS FMO (hereafter
referred to as Air Force managers) did not implement adequate controls over
recording        financial       transactions         within       the     DEAMS         O2C      business        process.
Specifically, Air Force managers did not include controls for reconciling general and
subsidiary ledgers or for making corrections to the categories of TWCF transactions
that were incorrectly created by other accounting sites. This occurred because
Air Force managers conducted inadequate BPR by attempting to correct known
O2C process weaknesses rather than reengineering the entire O2C process.                                                   In
addition, Air Force managers did not conduct comprehensive risk assessments to
identify certain financial reporting requirements. As a result, in FY 2012, 11 accounts
associated with the DEAMS O2C business process produced about $2.8  billion3 of
abnormal balances4 while processing data for only one location.                                             However, in
FY 2013, Air Force managers implemented improvements that resulted in a
reduction of abnormal balances in the 11 accounts to about $154 million. In addition
to the FY 2013 abnormal balances, the lack of reconciling controls and TWCF
transaction adjustment controls resulted in data inaccuracies of about $25 million
at two locations. As DEAMS deploys to additional locations, data inaccuracies could
grow significantly if site-specific process weaknesses and functional gaps are not
identified and resolved, which would likely hinder the Air Force from using DEAMS to
meet its FY 2017 auditability requirement.

	3	
     The $2.8 billion of abnormal balances was based on FY 2012 DEAMS O2C ending data. This information is based on data
    from one location (Scott AFB), because during this time period DEAMS was deployed at only one location.
	4	
     An abnormal balance is a balance reported in a general ledger account that is different from the expected normal balance
    for that account as defined in the chart of accounts. For example, an abnormal balance happens when an account such as
    Accounts Receivable (1310), which has a normal debit balance, has a reported credit balance.




Air Force Managers Did Not Implement Adequate
Controls Over Recording Financial Transactions
Air Force managers were responsible for implementing and monitoring financial
reporting controls in DEAMS; however, Air Force managers did not implement adequate
controls over recording DEAMS O2C financial transactions. The Office of Management
and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal Control,”



                                                                                                                                DODIG-2014-068 │ 5
Finding



                 December 21, 2004, requires system managers to establish and maintain internal
                 controls to achieve the objectives of effective and efficient operations, reliable financial
                 reporting, and compliance with applicable laws and regulations. Air Force managers
                 did not have controls in place to ensure that DEAMS produced reliable data or achieved
                 compliance with laws and regulations as required by OMB Circular A-123. For example,
                 Air Force managers did not ensure that the DEAMS O2C business process included
                 controls for reconciling accounts and the adjustment of incorrectly categorized
                 TWCF transactions created by other accounting sites.


                 Controls for Reconciling Accounts Were Inadequate
                 Air Force managers did not implement appropriate controls over their financial
                 transactions, such as reconciliations,5 to ensure that DEAMS produced reliable data and
                 achieved compliance with laws and regulations, as required by OMB Circular A-123.
                 Reconciliations assist in identifying and correcting input errors and abnormal balances
                 within financial accounts; however, Air Force managers did not ensure that DEAMS
                 had the capabilities to allow DFAS-Limestone6 personnel to comply with reconciliation
                 requirements.7           Specifically, DFAS-Limestone personnel responsible for performing
                 subsidiary and general ledger reconciliations could not perform reconciliations
                 among the DEAMS General Fund and TWCF subsidiary and general ledgers for
                 30 O2C accounts to ensure that the ledgers balanced. (See Appendix C for a listing
                 of the 30 O2C accounts.)                      During the audit, we discussed the requirement to
                 perform reconciliations with Air Force and DFAS managers. According to Air Force
                 managers, as of October 2013, the functionality and associated methodology to
                 perform reconciliations had been deployed, tested, and was working as intended
                 within DEAMS.


                 Controls for Adjusting Incorrectly Categorized Transactions
                 Within DEAMS Were Not Adequate
                 Air Force managers did not ensure that the DEAMS O2C process would allow
                 DFAS-Limestone personnel to make corrections to the category designated for
                 TWCF transactions that were incorrectly created by other locations that process
                 accounting transactions.                For the remainder of the report, accounting transactions
                 created by other locations that process accounting transactions will be referred to as


                 	5	
                     DoD 7000.14-R Financial Management Regulation volume 4, chapter 2, September 2008, states that reconciliation is a
                     process that compares two sets of records, and identifies and explains the differences between the records or account
                     balances. Furthermore, reconciliations are not complete until all differences are identified, accountability is assigned,
                     differences are explained, and the appropriate adjustments are made to records.
                 	6	
                     DFAS-Limestone was the DFAS location where auditors performed fieldwork.
                 	7	
                     The reconciliation requirements are set forth in the DoD Financial Management Regulation volume 6A, chapter 2,
                     August 2011 and Federal Information System Controls Audit Manual, February 2009.



6 │ DODIG-2014-068
                                                                                                                                    Finding



Transactions by-Others (TBO).8                          Standard Form 1081, “Voucher and Schedule
of Withdrawals and Credits,” is used to correct prior expenditures or collection
transactions.             DFAS 7900.4-M, “Financial Management Systems Requirements
Manual, volume 9, Accounts Payable (Payment Management),” September 2012,
requires systems to provide the capability to process a Standard Form 1081 that
corrects interfaced transactions.9 Because the functionality did not exist within
DEAMS, Air Force managers did not use Standard Form 1081 to process adjustments
for incorrectly categorized TWCF TBO transactions. When a TBO transaction was
received into DEAMS and was incorrectly categorized as either a reimbursement or
disbursement, DFAS-Limestone personnel could not correct the transaction, and the
errors accumulated.                  During the audit, Air Force managers developed a patch
to address several DEAMS related functionality problems including the lack of
capability to make TWCF TBO transaction adjustments.                                         According to Air Force
managers, Air Force managers tested the patch developed throughout January and
February 2013.               Air Force managers determined that the patch was working as
intended and released it in March 2013.


Business Process Reengineering and Comprehensive
Risk Assessments Were Not Adequate
DEAMS did not contain adequate controls over the DEAMS O2C process, in part,
because Air Force managers conducted inadequate BPR that led to missing financial
reporting requirements in DEAMS.                              The FY 2012 NDAA requires appropriate
BPR efforts before obligating funds for a Defense business systems program.
BPR is intended to be the logical methodology and metrics for assessing process
weaknesses, identifying gaps, and implementing controls to streamline and
improve business processes to create a solid foundation for success in changes
to the full spectrum of business operations.                                 However, according to Air Force
managers, rather than focusing on BPR, they instead continued to operate in a
legacy environment while correcting known process inconsistencies in the
DEAMS O2C business process.                            Air Force managers determined that a more
comprehensive BPR update would have been too drastic.                                          As a result, Air Force
managers did not fully assess and identify process weaknesses, modify the
O2C business process based on the identified weaknesses, and implement controls
that would improve the accuracy of reported financial data and reduce abnormal
balances.         To help increase the likelihood that process weaknesses and functional

	8	
       A TBO is an accounting transaction created by other locations that process accounting transactions.
	 9	
       “Interfaced transactions” refer to the point at which transaction data from one system is exchanged with another.




                                                                                                                           DODIG-2014-068 │ 7
Finding



                 gaps are identified, Air Force managers should establish metrics that measure
                 monthly abnormal balances and potential data inaccuracies at each location
                 DEAMS is deployed.        These metrics should be reported, reviewed, signed, and
                 maintained by senior level personnel from the Office of the Secretary of the
                 Air Force for Financial Management and Comptroller for both oversight and
                 budgetary purposes.

                 Additionally, Air Force managers did not conduct a comprehensive risk assessment
                 to ensure that the DEAMS O2C business process incorporated the required financial
                 reporting requirements necessary to eliminate financial reporting weaknesses.
                 Instead of performing a comprehensive risk assessment that identified where
                 controls over financial reporting were inadequate, as required by OMB Circular A-123,
                 Air Force managers relied primarily on input from DEAMS users, through help
                 desk tickets, to identify the need for system controls and financial reporting
                 requirements that were not addressed.          For example, the inability to make
                 adjustments to TWCF TBO transactions was identified through user help desk tickets
                 rather than through a comprehensive risk assessment or BPR efforts.             According
                 to Air Force managers, as of October 16, 2013, DEAMS program-wide risk
                 assessments were delinquent, but Information Technology Teams assessed risk
                 during quarterly and monthly Information Technology Team meetings.               Without
                 conducting adequate BPR and performing risk assessments that identify areas
                 of weakness for each location DEAMS is deployed, the Air Force will remain at
                 high risk of producing unreliable financial information. To reduce the risk, before
                 DEAMS is deployed to each additional location, Air Force managers should
                 conduct and maintain evidence of comprehensive assessments of each site, to
                 include risk assessments, and implement BPR as necessary.


                 DEAMS Inaccuracies Could Impede Air Force
                 Auditability and May Increase
                 The NDAA for Fiscal Year 2010 established the goal of ensuring that DoD financial
                 statements are validated as ready for audit no later than September 30, 2017. During
                 FY 2013, Air Force personnel processed 43,497,568 transactions worth about
                 $506 billion.    The O2C business process transactions accounted for 2,081,224
                 transactions worth about $65 billion during this time. Air Force managers developed
                 DEAMS as one of its solutions to correct the Air Force financial reporting weaknesses
                 and plan to use DEAMS to assert audit readiness in FY 2017.                However, as of
                 FY   2013,   DEAMS     was    processing   172,764   O2C    transactions    worth   about
                 $6.4 billion data from only two sites.



8 │ DODIG-2014-068
                                                                                                   Finding



Because Air Force managers did not conduct adequate BPR and comprehensive
risk assessments for the O2C business process, errors in DEAMS data resulted in
multi-billion dollar inaccuracies in financial data. For example, the lack of functionality
to perform reconciliations hindered Air Force managers from identifying and
correcting $2.8 billion worth of abnormal balances for 11 DEAMS O2C accounts in
FY 2012. Although Air Force managers made improvements that reduced abnormal
balances in DEAMS O2C accounts to $154 million in FY 2013, additional data errors
remain. (See Appendix D for detailed abnormal balance numbers for FY 2012 and
FY 2013.) Without conducting adequate BPR or a comprehensive risk assessment,
Air Force managers did not implement the controls to reconcile the subsidiary and
general ledgers, which resulted in an approximately $14 million difference between
the ledgers for the Accounts Receivable account in the fourth quarter of FY 2012.
In addition, without the controls in place to adjust TWCF TBO transactions, some
transactions accumulated for numerous years, which resulted in an approximate
$11 million data inaccuracy in DEAMS.          Without identifying control weaknesses
and implementing corrective actions, these data inaccuracies could grow significantly
and cause the Air Force to not meet its 2017 auditability mandate.


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller), prior to site specific deployment of the Defense
Enterprise Accounting and Management System Order-to-Cash module:

   a.	 Establish and maintain evidence of metrics for measuring abnormal
       balances and procedures for reviewing all monthly reconciliations, to
       include procedures for timely resolution of erroneous transactions
       within the Defense Enterprise Accounting and Management System.

The Assistant Secretary of the Air Force (Financial
Management and Comptroller) Comments
The Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responding for SAF/FMP, agreed, stating that SAF/FMP will direct
the DEAMS FMO and its DFAS partner to establish metrics for measuring abnormal
balances and procedures for reviewing all monthly reconciliations, to include
procedures for timely resolution of erroneous transactions within DEAMS.




                                                                                          DODIG-2014-068 │ 9
Finding



                 These metrics will be presented to SAF/FMP for review as part of the monthly
                 Accounting Integrated Process Team.        The estimated completion date of this
                 recommendation is June 30, 2014.

                      b.	 Conduct and maintain evidence of a comprehensive site assessment to
                         include risk assessments to identify financial control weaknesses and
                         implement business process reengineering to ensure accurate, reliable,
                         and timely financial reporting data.

                 The Assistant Secretary of the Air Force (Financial
                 Management and Comptroller) Comments
                 The Deputy Assistant Secretary of the Air Force (Financial Management and
                 Comptroller), responding for SAF/FMP, agreed, stating that SAF/FMP will direct
                 the DEAMS FMO to conduct and maintain evidence of a comprehensive site
                 assessment to include risk assessments to identify potential financial control
                 weaknesses and implement business process reengineering to ensure accurate,
                 reliable, and timely financial reporting data. This assessment will be incorporated
                 in the Deployment Decision Review conducted before DEAMS is released to each
                 new location.      The estimated completion date of this recommendation is
                 August 31, 2014.


                 Our Response
                 Comments from the Deputy Assistant Secretary of the Air Force (Financial
                 Management and Comptroller) to Recommendation 1.a and 1.b were responsive,
                 and no additional comments are required.


                 Recommendation 2
                 We recommend that the Director, Defense Enterprise Accounting and
                 Management System Functional Management Office conduct and maintain
                 evidence of monthly monitoring of the metrics measuring abnormal balances
                 at all deployed sites of the Defense Enterprise Accounting and Management
                 System, and report the outcome to senior level personnel within the Office of
                 the Secretary of the Air Force (Financial Management and Comptroller) monthly.




10 │ DODIG-2014-068
                                                                                          Finding



Defense Enterprise Accounting and Management System
Functional Management Office Comments
The Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responding for the DEAMS FMO, agreed, stating that the DEAMS FMO
in conjunction with the DFAS Enterprise Resource Office will establish a set of
metrics for measuring abnormal balances and procedures for reviewing all
monthly reconciliations, to include procedures for timely resolution of erroneous
transactions within DEAMS.      These metrics will be presented to SAF/FMP for
review as a part of a monthly Accounting Integrated Process Team. The estimated
completion date of this recommendation is June 30, 2014.


Our Response
Comments from the Deputy Assistant Secretary of the Air Force (Financial
Management and Comptroller) were responsive, and no additional comments
are required.




                                                                                DODIG-2014-068 │ 11
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from August 2012 through February 2014 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for
                 our findings and conclusions based on our audit objectives.

                 We reviewed OMB Circular A-123; the DoD Financial Management Regulation;
                 DFAS manual 7900.4-M; the NDAA for FYs 2010 and 2012; the Office of Federal
                 Management Core Financial System Requirements, January 2006; United States
                 Standard General Ledger for FY 2012; DoD Standard Reporting Chart of Accounts
                 for FY 2012, and the Federal Information System Controls Audit Manual.           We
                 conducted site visits to the DEAMS FMO, USTRANSCOM, the Air Mobility Command,
                 and DFAS-Limestone to observe the processing of accounting transactions by
                 DEAMS O2C users and to understand the DEAMS O2C process and system
                 functionalities.    In addition, we interviewed personnel from the Office of the
                 Deputy Chief Management Officer and Air Force managers to understand the Air Force
                 end-to-end O2C process. Furthermore, we conducted interviews with Office of the
                 Secretary of the Air Force for Financial Management and Comptroller management
                 and discussed the Air Force’s BPR efforts and the performance of risk assessments
                 for the DEAMS program.

                 To determine whether internal controls were adequate for the DEAMS O2C
                 process, we reviewed whether controls were in place for two processes unique to
                 DEAMS: daily and monthly reconciliations and making adjustments to TWCF TBO
                 transactions.      To determine whether DEAMS could perform daily and monthly
                 reconciliations, we reviewed whether differences existed between the general ledger
                 and the subsidiary ledger. We obtained and compared the FY 2012 fourth quarter
                 DEAMS general ledger and subsidiary ledger data for the 1310 Accounts Receivable
                 account, according to the U.S. Government Standard General Ledger Chart of
                 Accounts. We calculated and compared the differences between the net activity of
                 the general ledger 1310 account, using total debits and credits, and the subsidiary
                 ledger data, using beginning and ending balances.




12 │ DODIG-2014-068
                                                                                            Appendixes



To determine the impact of DEAMS’s inability to perform monthly reconciliations,
we interviewed DFAS-Limestone personnel and obtained an understanding of the
DEAMS journal voucher process. We analyzed and identified the number of journal
vouchers and associated journal imports made to the general ledger 1310 account
during the fourth quarter of FY 2012. We used the analysis to identify the number of
corrective journal vouchers necessary within one quarter of data. We also obtained
the DEAMS O2C abnormal balance data for April 2012 and Fiscal Year end 2012 to
identify abnormal balances within O2C specific accounts.

To determine the impact of DEAMS’s inability to make adjustments to TBO transactions,
DFAS-Limestone personnel provided us with detailed explanations of the TWCF TBO
transactions. Using DFAS-Limestone personnel’s methodology, we then recalculated
and determined the monetary value of TBO transactions requiring Standard Form 1081
capabilities to be corrected.


Use of Computer-Processed Data
To assess the reliability DEAMS data, we traced transactions through the accounting
system and reviewed the supporting documentation.               In addition, we observed
DEAMS users process O2C accounting transactions. Our assessment indicated that
the DEAMS data was not reliable; however, during the performance of this audit,
Air Force managers have implemented corrective actions to improve the quality of
the data. The unreliable data in DEAMS and the Air Force’s corrective actions are
discussed in the finding section of this report.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.




                                                                                       DODIG-2014-068 │ 13
Appendixes




                 Appendix B
                 Prior Audit Coverage
                 During the last 5 years, the Government Accountability Office (GAO), the Department
                 of Defense Inspector General (DoD IG), and the Air Force Audit Agency (AFAA) have
                 issued 10 reports related to DoD business transformation and DEAMS. Unrestricted
                 GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
                 DOD  OIG      reports   can   be   accessed   at   http://www.dodig.mil/audit/reports.
                 AFAA reports can be accessed from .mil domains over the Internet at
                 https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
                 Common Access Cards and access to the Air Force Portal.


                 GAO
                 Report No. GAO-12-134, “DoD Financial Management: Implementation Weaknesses
                 in Army and Air Force Business Systems Could Jeopardize DoD’s Auditability Goals,”
                 February 2012

                 Report No. GAO-11-53, “DoD Business Transformation: Improved Management
                 Oversight of Business System Modernization Efforts Needed,” October 2010

                 Report No. GAO-08-866, “DoD Business Transformation: Air Force’s Current Approach
                 Increases Risk That Asset Visibility Goals and Transformation Priorities Will Not
                 Be Achieved,” August 2008


                 DOD OIG
                 DoD IG Report No. D-2013-111, “Status of Enterprise Resource Planning Systems’
                 Cost, Schedule, and Management Actions Taken to Address Prior Recommendations,”
                 August 2013

                 DoD IG Report No. D-2012-140, “An Unreliable Chart of Accounts Affect Auditability
                 of Defense Enterprise Accounting and Management System Financial Data,”
                 September 2012

                 DoD IG Report No. D-2012-111, “Enterprise Resource Planning Systems Schedule
                 Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
                 July 2012




14 │ DODIG-2014-068
                                                                                         Appendixes



Air Force
AFAA Memorandum Report of Audit, F2013-0008-O10000, “Defense Enterprise
Accounting and Management System Accounting Conformance,” December 2012

AFAA   Report   No.   F2012-0003-FB2000,     “Defense   Enterprise   Accounting   and
Management System Controls Selected System Controls,” January 2012

AFAA   Report   No.   F2010-0010-FB2000,     “Defense   Enterprise   Accounting   and
Management System Controls Accounting Conformance,” August 2010

AFAA   Report   No.   F2009-0004-FB2000,     “Defense   Enterprise   Accounting   and
Management System Controls,” February 2009




                                                                                    DODIG-2014-068 │ 15
Appendixes




                 Appendix C
                 Thirty Order-to-Cash Accounts
                 The following table identifies the 30 O2C related accounts.

                                                                                                Account
                                                       Account Title                            Number
                      Fund Balance with Treasury                                                 1010
                      Accounts Receivable                                                        1310
                      Interest Receivable––Not Otherwise Classified                              1340
                      Penalties and Fines Receivable––Not Otherwise Classified                   1360
                      Liability for Advances and Prepayments                                     2310
                      Liability for Nonfiduciary Deposit Funds and Undeposited Collections       2400
                      Custodial Liability                                                        2980
                      Other Liabilities Without Related Budgetary Obligations                    2990
                      Unexpended Appropriations                                                  3107
                      Anticipated Reimbursements and Other Income                                4210
                      Unfilled Customer Orders Without Advance                                   4221
                      Unfilled Customer Orders With Advance                                      4222
                      Reimbursements and Other Income Earned––Receivable                         4251
                      Reimbursements and Other Income Earned––Collected                          4252
                      Apportionments––Anticipated Resources––Program Subject to Apportionment    4590
                      Allotments-Realized Resources                                              4610
                      Unobligated Funds Exempt From Apportionment                                4620
                      Allotments––Expired Authority                                              4650
                      Anticipated Resources––Program Exempt from Apportionment                   4690
                      Delivered Orders––Obligations Paid                                         4902
                      Revenue From Service Provided                                              5200
                      Contra Revenue for Services Provided                                       5209
                      Interest Revenue––Other                                                    5310
                      Penalties and Fines Revenue                                                5320
                      Expended Appropriations                                                    5700
                      Other Revenue                                                              5900
                      Collections for Others––Statement of Custodial Activity                    5990
                      Accrued Collections for Others––Statement of Custodial Activity            5991
                      Operating Expenses/Program Cost                                            6100
                      Other Expenses Not Requiring Budgetary Resources                           6790


16 │ DODIG-2014-068
                                                                                                                                         Appendixes




Appendix D
DEAMS Abnormal Balances in Order-to-Cash Accounts
The following table identifies the absolute values10 of the FY 2012 and FY 2013
abnormal balances in the O2C related accounts. The reported balances in the below
accounts are opposite of their normal debit or credit balance, as set forth in the
United States Government Standard General Ledger.


                                                                Account                Abnormal Balance Amount
                       Account Title                            Number             2012 FY End                 2013 FY End
 Fund Balance with Treasury                                       1010            $915,185,683.59               $1,600,649.98
 Accounts Receivable                                              1310                   664,806.80                    813,246.91
 Liability for Nonfiduciary Deposit Funds and                     2400                 5,995,434.75             27,984,361.60
 Undeposited Collections
 Other Liabilities Without Related Budgetary                      2990                     14,320.29                     2,844.29
 Obligations
 Anticipated Reimbursements and Other                             4210              395,446,438.33                       4,273.31
 Income
 Unfilled Customer Orders with Advance                            4221           1,144,457,782.96                        1,330.44
 Reimbursements and Other Income Earned                           4251                 1,672,528.59                    262,759.16
 – Receivable
 Apportionments – Anticipated Resources –                         4590                      1,780.80                     1,784.31
 Program Subject to Apportionment
 Allotments- Realized Resources                                   4610                      1,917.00                     1,917.00
 Unobligated Funds Exempt from                                    4620               90,750,681.69             122,472,237.08
 Apportionment
 Allotments – Expired Authority                                   4650              219,423,051.43                     462,170.07
   Sum of Abnormal Balances                                                    $2,773,614,426.23             $153,607,574.15




	10	
       Absolute Value is the sum of the positive values of debit and credit transactions without regard to the sign.




                                                                                                                                    DODIG-2014-068 │ 17
Appendixes




                 Appendix E
                 Assistant Secretary of the Air Force (Financial
                 Management and Comptroller) Comments




18 │ DODIG-2014-068
                                                       Appendixes



Assistant Secretary of the Air Force (Financial
Management and Comptroller) Comments (cont’d)




                                                  DODIG-2014-068 │ 19
Appendixes



                 Assistant Secretary of the Air Force (Financial
                 Management and Comptroller) Comments (cont’d)




20 │ DODIG-2014-068
                                                                   Acronyms and Abbreviations




Acronyms and Abbreviations
        AFAA Air Force Audit Agency
          AFB Air Force Base
          BPR Business Process Reengineering
       DEAMS Defense Enterprise Accounting and Management System
         DFAS Defense Finance and Accounting Service
         FIAR Financial Improvement and Audit Readiness
         FMO Functional Management Office
         GAO Government Accountability Office
        NDAA National Defense Authorization Act
         O2C Order-to-Cash
         OMB Office of Management and Budget
         TBO Transaction By-Others
        TWCF Transportation Working Capital Fund
 USTRANSCOM United States Transportation Command




                                                                              DODIG-2014-068 │ 21
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
